                                          Testimony of 


                        THE HONORABLE TODD J. ZINSER 

                             INSPECTOR GENERAL 

                           U.S. DEPARTMENT OF COMMERCE

                                  before a field hearing of the

                 Committee on Oversight and Government Reform, 

                            House of Representatives 


                                      Monday, July 19, 2010 

                                       Brooklyn, New York 




                  Whistleblower Allegations 

      Concerning Census Operations in Brooklyn, New York 


Chairman Towns, Ranking Member Issa, and Members of the Committee:

I appreciate the opportunity to be here today to testify on the whistleblower allegations we
received concerning Census operations in Brooklyn, New York, and the steps being taken to
ensure the accuracy of the 2010 count. My testimony today will briefly summarize the results of
recent investigations into serious allegations that local Census office (LCO) management
directed employees to falsify Census questionnaires during Nonresponse Follow-up (NRFU), the
Census operation in which enumerators visit and conduct interviews at addresses where the
households did not respond to the original Census questionnaires. I will also address how Census
has responded to these allegations.


WHISTLEBLOWER ALLEGATIONS
We became aware of the allegations concerning the Brooklyn Northeast LCO on June 14, 2010,
when our hotline center received two e-mailed complaints alleging improprieties by the LCO
manager and assistant manager for field operations. (Organizationally, each LCO has a manager
and two assistant managers who oversee enumerations: the assistant manager for field operations
and the assistant manager for quality assurance). The complaints specifically alleged that the
LCO manager and assistant manager for field operations had directed employees to falsify
enumeration questionnaires using information from an Internet database rather than attempting to
conduct in-person interviews as required by Census procedures. Within hours of receiving these
complaints, we reviewed and forwarded the information to senior management at Census
headquarters requesting an immediate investigation.


Our hotline center received a third e-mail on June 16, repeating the same allegations as the
earlier complaints, but also indicating that an LCO operations supervisor resigned rather than
comply with the managers’ orders. The information from this e-mail was also promptly provided
to Census headquarters with a follow-up request for immediate investigation. A chronology of
the events surrounding the initial and subsequent allegations is included as an appendix to this
testimony.


FINDINGS TO DATE
In short, based on Census’s internal findings and our own independent investigative efforts, the
initial allegations have been confirmed. According to interviews with Brooklyn Northeast LCO
employees, the assistant manager for field operations recommended to the LCO manager during
the week of June 7 that blank Census questionnaires be filled in using information from
FastData®, a proprietary Internet database.


The Census Bureau maintains a subscription to FastData and uses the service as part of its
quality assurance process. Census has internal controls to guard against the misuse of FastData,
such as restricted access and written guidance on the database’s appropriate use. However, in the
Brooklyn case, LCO management improperly directed office clerks to use FastData information
to complete the questionnaires, thereby defeating Census’s internal controls. Based on our
investigation, we have ruled out the possibility that the LCO manager and the assistant manager
were directed by either headquarters or the regional Census center that oversees the LCOs in the
area to take this improper action.




                                                 2

Between June 9 and 11, the assistant manager for field operations and two office clerks printed
out FastData records for approximately 1,000 blank questionnaires. In her current position, the
assistant manager for field operations should not have had access to FastData. However, because
she had previously been the assistant manager for quality assurance, she retained her FastData
access privileges. This alone violates Census practice governing the use of FastData.


On June 12 and 13, the LCO manager distributed these questionnaires and the associated
FastData printouts to several clerks, who then worked in shifts of two in his private office to
complete the task. Specifically, the LCO manager instructed two clerks to fill out the
questionnaires using the supplied FastData printouts, and, in the sections that were not covered
by the FastData information, to falsely record that the resident had refused to respond. Finally,
these two clerks relayed the LCO manager’s instructions to other clerks in the office, who in turn
completed questionnaires in the same improper manner. For instance, some clerks told us they
filled out their questionnaires using information from FastData—e.g., a list of several names
associated with a single address—to infer the number of residents, while other witnesses we
interviewed stated that they had been instructed to simply enter “1” as the number of residents at
a particular address.


CENSUS’S RESPONSE TO THE BROOKLYN ALLEGATIONS
To its credit, the Census Bureau acted quickly to investigate the allegations and took corrective
action. Census immediately dispatched an internal investigative team to Brooklyn, and the
Census Director personally visited the Brooklyn Northeast LCO. Personnel actions were
promptly taken and remediation efforts planned or initiated. However, as we will discuss,
additional allegations have been raised with respect to the remediation efforts.


On June 22, Census notified the Office of Inspector General (OIG) that it had terminated both
the LCO manager and the assistant manager for field operations and ordered the re-enumeration
of all questionnaires completed on or after June 12, bringing in staff from nearby LCOs to
conduct the re-enumerations. This work was to be carried out pursuant to established Census
procedures requiring re-enumeration under certain circumstances, primarily to address quality
assurance findings. Initially, it was reported in the press that there were approximately


                                                 3

10,000 cases of potential falsification. However, this was Census’s rough estimate given the
information available at the time. Our current understanding, from Census’s analysis of the
incident, is that 4,221 household records required re-enumeration as a result of the whistleblower
allegations. The revised estimate seems reasonable based on our review of Census’s approach;
however, we will continue to evaluate its methodology and results in our investigation.


As a result of the Brooklyn incident, Census developed a process for identifying cases where
FastData was used improperly. It has applied this model to other LCOs in Brooklyn, and has not
found evidence that FastData was misused. The bureau is now analyzing how its methodology
can be applied nationwide to detect anomalies indicative of similar abuses.


Census’s remediation efforts have included assigning employees from other Brooklyn LCOs to
re-enumerate all questionnaires logged between June 12 and June 22. But two subsequent
complaints to OIG and Census allege that these efforts have caused additional problems. On July
7 and 8, we received allegations that during remediation efforts, some of the employees assigned
from the other Brooklyn LCOs to perform the re-enumeration were inferring the number of
household residents through improper means.


OIG and Census have each independently substantiated this allegation, and concluded that one of
the causes may be the interpretation of Census directives made by field staff enumerating “last­
resort” cases (addresses that could not be enumerated directly or by proxy interview after
numerous attempts). Census issued directives for enumerators to follow in last-resort cases.
These directives state in part that enumerators, together with their crew leaders, “may make the
determination about the status of the address based on their best judgment.” Census defines
“status” as whether the housing unit at a given address is considered occupied, vacant, or
nonexistent—but it did not intend for its instructions to direct enumerators to make assumptions
about and enter the number of residents on the questionnaire. As a result of this ambiguity, some
enumerators resorted to counting the names on mailboxes while others based their assumptions
on other visible evidence. Census is reviewing the matter and deciding on corrective actions,
which may include further re-enumeration. In the future, Census needs to ensure that its written




                                                4

guidance clearly prescribes both acceptable and unacceptable last-resort enumeration actions for
determining the occupancy status of a housing unit and the number of its residents.


CENSUS’S QUALITY ASSURANCE AND FRAUD DETECTION PROCESSES

The Census Bureau employs a number of quality control measures across all operations, many of
which rely on crew leaders. Crew leaders are first-line supervisors who conduct initial
observations of new enumerators, perform on-the-job training, and review completed enumerator
work. Essentially, crew leaders have primary responsibility for the day-to-day monitoring and
supervising of the enumerators assigned to them and the quality of their work.


In addition to the crew leaders’ efforts, quality assurance staff verify that enumerators actually
interviewed the original respondents, by calling or visiting randomly selected housing units and
conducting re-interviews. The captured data from the initial enumeration questionnaire and the
re-interview questionnaire are sent through a matching process to determine if the enumerator
conducted the interview correctly and followed proper procedures. The Matching, Review and
Coding System (MaRCS) performs this function. MaRCS is a software application whose
functions include comparing production and re-interview results, identifying situations of
possible data falsification, and referring those cases to the LCO quality assurance staff for
investigation.


Census developed its quality assurance procedures in response to erroneous and false
enumerations it experienced in prior censuses. In the 2010 Census, these procedures have
detected and remediated instances of falsification as well as serious enumerator error in LCOs
across the country. As Census nears the end of its decennial operations, the more difficult-to­
enumerate housing units call for “last-resort” procedures, which tend to generate a greater
incidence of falsification. Recent Census MaRCS reports reflect a substantial rise in the number
of identified false enumerations occurring at the end of NRFU, where last-resort cases are
encountered, suggesting that quality assurance procedures are actually working, but also that
Census’s procedures for last-resort cases—for instance, the need to eliminate any ambiguity in
its operations directives—require improvement for future censuses.



                                                 5

Finally, an important quality assurance process is the OIG hotline, which in this case was used
by Brooklyn Northeast LCO employees to blow the whistle on what they believed were improper
enumeration activities. We credit the Census Bureau with actively informing its employees about
how to contact our hotline center. Census employees and supervisors, as well as the American
public, are among our most important sources of information about whether Census procedures
are being adhered to. OIG works closely with the Census Bureau to ensure hotline complaints are
addressed promptly and investigated thoroughly. We have been monitoring, and will continue to
monitor, 2010 Census enumeration quality assurance operations such as supervisory controls, the
NRFU re-interview process, and the output from MaRCS.


OIG’S CONTINUING EFFORTS

Under the Inspector General Act of 1978, I am required to report promptly to the Attorney
General whenever I have reasonable grounds to believe there has been a violation of federal
criminal law. Accordingly, on July 7, my office contacted the U.S. Attorney’s Office for the
Eastern District of New York about the whistleblower allegations we received concerning the
Brooklyn Northeast LCO. Only the Department of Justice can determine whether criminal
prosecution is warranted in this case. Also, beginning the week of July 12, OIG investigators and
auditors visited Brooklyn to review documents and conduct interviews as part of our ongoing
investigation. We will report the results of our investigation to the U.S. Attorney’s Office as
expeditiously as possible and keep the Census Director, the Secretary, and Congress informed of
the status of our investigation.


Our actions concerning the Brooklyn LCO represent only one element of our oversight of the
2010 Census. Our work has included a comprehensive nationwide review of Census field
operations. This has included extensive field visits by over 100 OIG staff to Census offices in
every state. During our field work, we monitored multiple 2010 Census operations, observed
management practices, and reviewed information technology systems. In so doing, we collected
data that enabled us to conduct a continuous, national-level review of decennial census finances,
schedule, and risk assessment and mitigation activities. Further, our oversight was instrumental
in determining whether operations, including quality control checks, were being conducted in


                                                 6

accordance with Census procedures and generated multiple reports and recommendations for
Census Bureau corrective actions.


The Brooklyn incident differs from other cases of falsification we have seen because it involves
LCO management improprieties rather than individual enumerator misconduct. The Census
Bureau is taking steps to assess whether the inappropriate use of FastData and falsification of the
type seen in Brooklyn could be more widespread and whether additional remediation is needed.
We plan to review Census’s actions to evaluate their effectiveness.


This concludes my prepared statement, and I would be pleased to respond to any questions you
may have.




                                                 7

Appendix


            Commerce OIG 30-Day Chronology of Whistleblower Allegations 

              Concerning the Brooklyn Northeast LCO as of July 14, 2010 


¾	 June 14, 2010
      •	 The Commerce OIG hotline receives two complaints alleging that the management at
         the Brooklyn Northeast LCO directed employees to falsify as many as 4,000
         questionnaires using information from an address history list obtained from the
         Internet. Commerce OIG notifies Census the same day per established procedures and
         requests an immediate investigation.
¾	 June 16, 2010
      •	 The Commerce OIG hotline receives a third complaint about the same incident. The
         complaint indicates that one office operations supervisor resigned rather than comply
         with upper management’s directive. This complaint was also forwarded to Census
         officials immediately.
¾	 June 22, 2010
      •	 Census officials notify Commerce OIG that their investigation of the incident at the
         Brooklyn Northeast LCO had confirmed the allegations. Census outlines immediate
         actions, including termination of two managers and plans to re-work approximately
         10,000 questionnaires.
¾	 June 28, 2010
      •	 Commerce OIG opens a criminal investigation.
¾	 July 7, 2010
      •	 Commerce OIG contacts the U.S. Attorney’s Office for the Eastern District of New
         York. OIG and the Census Director receive a fourth complaint, alleging irregularities
         in Census’s remediation efforts in the Brooklyn Northeast LCO. Commerce OIG
         notifies Census that auditors are being sent to the Brooklyn Northeast LCO to review
         Census’s remediation process.
¾	 July 8, 2010
      •	 Commerce OIG requires the Brooklyn Northeast LCO to hold all remaining
         enumeration questionnaires in its office for OIG review. That evening, the Commerce
         OIG hotline receives an anonymous voice mail, making similar allegations about
         irregularities in the remediation efforts in the Brooklyn Northeast LCO.
¾	 July 12, 2010
      •	 The anonymous complaint from July 8 is forwarded to Census officials.
¾	 July 14, 2010
      •	 Census remediation efforts and Commerce OIG audit and investigation efforts
         continue.




                                              8

